                    OFFICE OF INSPECTOR GENERAL

              LIMITED SCOPE AUDIT REPORT

                                        ON SELECTED
                                       NEA GRANTS TO

                                  Music-Theatre Group
                                            New York, NY



                                REPORT NO. LS-13-02
                                                                                  Rev. 1



                                            March 1, 2013

                               REDACTED - FOR PUBLIC RELEASE




                                     REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on the
National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly available with
the approval of the NEA Office of Inspector General. Information contained in this report may be confidential. The
restrictions of 18 USC 1905 should be considered before this information is released to the public. Furthermore,
information contained in this report should not be used for purposes other than those intended without prior
consultation with the NEA Office of Inspector General regarding its applicability.
                                  INTRODUCTION
BACKGROUND

Music-Theatre Group (MTG), located in New York City, was founded in 1970 to nurture,
develop, and produce the works of emerging, mid-career, and established artists in order to take
productions to diverse communities. It centers its production activities on the following: 1) to
recognize and support artists of considerable gifts at any stage in their development, 2) to support
long-term commitments to collaboration, and 3) to produce and promote these artists' music-
theatre works.

OBJECTIVE AND SCOPE

Limited scope audits involve a limited scope review of financial and non-financial information
of grant recipients to ensure validity and accuracy of reported information, and compliance with
Federal requirements. The objectives of this limited scope audit by the National Endowment for
the Arts (NEA) Office of Inspector of General (OIG) were to determine whether the:

      grantee fulfilled the financial and compliance requirements as set forth in the grant
       awards;
      total project costs claimed under the grants were reasonable, accurate, allocable, and
       allowable; and
      required match was met on NEA grant funds.

Our audit was conducted in accordance with the Government Auditing Standards (2011), issued
by the Comptroller General of the United States. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives. We
evaluated the recipient's compliance with the U.S. Office of Management and Budget (OMB)
and NEA guidance.

Since 1986, NEA has awarded MTG 43 grants totaling $1,451,400. For the scope of this audit,
we reviewed four grants totaling $240,000.

PRIOR AUDIT COVERAGE

NEA OIG conducted an evaluation and issued a Financial Management System and Compliance
Evaluation report on Federal grants awarded to the Music-Theatre Group (Report No. SCE-08-
03, dated November 21, 2007). The evaluation concluded that MTG did not comply with OMB
requirements or NEA General Terms and Conditions. The evaluation found that MTG was
delinquent on its taxes, was not compliant with the terms and conditions of the Challenge Grant's
permanent Cash Reserve Fund requirements, did not have an allocation method, did not have an
accounting manual and did not have a Section 504 self-evaluation on file.
                                                 1
As of our site visit on June 20, 2012, the most recently issued independent auditor’s report on
MTG was for the year ended June 30, 2008. The audit was conducted by Bloom and Streit, LLP,
an independent CPA firm, which issued an unqualified (clean) opinion. MTG did not provide an
audit report for 2009. However, MTG provided review reports for fiscal years 2010 and 2011,
which were substantially less in scope than an audit. During the 2010 and 2011 reviews, the
auditors applied analytical procedures to management's financial data and made inquiries of
MTG's management. The auditors determined that based on their reviews, there were no
material misstatements. MTG was not subject to the audit requirements of OMB Circular A-133.

                              RESULTS OF AUDIT
Our audit concluded that MTG did not have an adequate financial management system in place
to manage Federal awards. Specifically, we found that MTG did not:


          Comply with the Challenge Grant - Cash Reserve requirement.
          Comply with Office of Management and Budget (OMB) guidance for reporting
           accurate, allowable, and allocable costs.
          Maintain appropriate supporting documentation.
          Maintain policies and procedures for debarment and suspension.
          Maintain a Section 504 self-evaluation.
          Maintain adequate policies and procedures for the management of Federal awards.

                       FINANCIAL MANAGEMENT
Grant No. 86-4621-0056

In 1986, MTG was awarded a Challenge Grant in the amount of $150,000, which included
$15,000 to assist in eliminating notes payable and $135,000 to establish a permanent cash
reserve fund, both of which had matching requirements as detailed below.

                                             Federal      Matching
                        Purpose                                          Total
                                              Funds        Funds
               Establish a Cash Reserve      $135,000      $405,000    $540,000
               Eliminate Notes Payable         15,000        45,000      60,000
               Total                         $150,000      $450,000    $600,000

The cash reserve was to remain permanent, and funds could be borrowed if repaid within a two-
year period from the date of borrowing. The repayment was to be made according to a payment
schedule developed and adhered to by the grantee. In addition, the cash reserve was to be
reported separately in the grantee's audited financial statements. On September 28, 1992, MTG
submitted its final report to NEA, certifying that the notes payable and matching requirement had

                                               2
been met. On August 30, 1993, MTG submitted documentation to support the establishment of
its permanent cash reserve.

In November 2007, NEA OIG conducted a Financial Management System and Compliance
Evaluation, Report No. SCE-08-03. During the evaluation, we discovered that MTG had
outstanding      debt and had borrowed the entire required cash reserve of $540,000. The report
stated that "MTG indicated that it has not paid back any borrowings to the Fund since the early
1990's." NEA deemed MTG ineligible to receive any payments or new awards until an
agreement was reached              and evidence of payments         were provided. MTG was
also required to submit a workable plan for the repayment of the Cash Reserve Fund. If
reinstated, MTG was to be placed on the Working Capital Advance Method of Funding (WCA).
WCA allows the grantee to draw down 20% of the grant funds without documentation; however,
the grantee is required to submit supporting documentation for all of the costs before any
additional grant funds can be drawn down.

In March 2010, MTG submitted a workable plan for the repayment of the Cash Reserve Fund, its
repayment agreement             and evidence of payments made. MTG agreed to repay the Cash
Reserve Fund after its obligation          had been met.

In April 2010, MTG's eligibility status was reinstated with the requirement that any changes to
the                        agreement (e.g., nonpayment, change in terms) or its plan to comply
with the Challenge Grant's Cash Reserve Fund requirements be reported to the NEA OIG.

On May 2, 2012, we contacted MTG to request evidence of payments made                  . MTG's
Producing Director informed us that in January 2011, MTG requested         to lower the agreed-
upon payments. She also informed us that       instructed her to discontinue payments until
responded to the request. According to MTG's documentation, the last payment            was
dated February 17, 2011. (NEA OIG had not been notified of the request or nonpayment.) We
requested documentation to support MTG's request           however, as of the date of this report,
MTG has not provided adequate documentation.

On May 29, 2012, as a result of MTG's noncompliance with the reinstatement requirements and
conditions, NEA deemed MTG ineligible to receive any payments or new awards.

During our site visit, we were informed that MTG had not received a response         since its
request for a reduction in payment made by phone January 8, 2011. We were also informed that
MTG had not made any other attempts to contact      .

NEA General Terms states:

       You may not be delinquent in the repayment of any Federal debt. Examples of relevant debt
       include delinquent payroll or other taxes, audit disallowances, and benefits that were
       overpaid (OMB Circular A-129). Should you become delinquent during your project
       period, you must notify us immediately. We cannot release your award funds until a
       repayment plan has been accepted by the Internal Revenue Service.


                                                  3
We recommend that MTG repay NEA $135,000 for Challenge Grant No. 86-4621-0056, plus
any applicable penalties and interest. (See Attachment A)

We also recommend that MTG provide NEA with an approved
Agreement and evidence of payments for at least one year, made in accordance with the
agreement.

Grant No. 07-2800-7035

MTG was awarded a $30,000 grant to support the production of "Golden Motors." As a result of
being on the WCA, MTG was allowed to drawn down 20% of the grant award without
documentation. MTG provided documentation for the initial advance of $6,000. However, NEA
disallowed the costs because the costs were outside of the grant period. An e-mail
correspondence from MTG to the NEA Grants and Contracts Office, dated July 27, 2011, stated
that "the best course of action for us (MTG) is to request that the grant be withdrawn and for us
(MTG) to return the $6,000 by the end of the calendar year, December 31, 2011." NEA agreed
to MTG's request to "close-out" the grant with the repayment of $6,000 and de-obligated the
remaining $24,000. As of June 20, 2012, MTG had not submitted a payment nor communicated
with NEA about the return of the $6,000.

We recommend that MTG repay NEA $6,000 for Grant Number 07-2800-7035. (See
Attachment A)

Grant No. 08-2800-7028

MTG was awarded a $40,000 grant to support the world premiere of the contemporary staged
oratorio, "Arjuna's Dilemma." MTG reported $404,832 in total outlays on their final financial
report. During our site visit, MTG provided us with an expenditure listing in the amount of
$400,282. However, MTG could not provide adequate documentation to support the expenditure
listing. Although we could not perform transaction testing, our review of this expenditure listing
concluded that MTG did not adequately record transactions in its financial system, or report
accurate, actual and allowable costs on its final reports.

Costs Outside the Grant Period

MTG reported costs incurred outside the grant period on its final financial report. The
expenditure listing provided included costs incurred prior to the start of grant award period. For
example, the award period begin June 1, 2008; however, MTG included costs incurred in April
2008. NEA General Terms states, in part, that "all costs must be incurred within the approved
period of support."




                                                 4
Unallowable Costs

The expenditure listing included costs, such as babysitting, childcare, and cleaning services for a
sublet, which are unallowable under OMB Circular A-122, Cost Principles for Non-Profit
Organizations.

Inadequate Documentation

We could not reconcile the supporting documentation to the expenditure listing, therefore, we are
questioning the total outlays reported on the final financial report in the amount of $404,832.

NEA General Terms and Conditions states:

       You must maintain financial records, supporting documents (such as cancelled checks,
       invoices, contracts, travel reports, donor letters, in-kind contribution reports, and personnel
       activity reports), statistical records, and all other records pertinent to an award consistent
       with the provisions outlined in OMB Circular A-110, Section 53, or the “Common Rule”
       Section 1157.42, as applicable. Generally, the retention period is three years from the date
       the final Financial Status Report is filed.

Although we could not test the total outlays reported in the amount of $404,832, we were able to
test the WCA documentation MTG provided NEA Grants and Contracts Office to support its
final request for payment with reported total outlays in the amount of $80,135. The NEA Grants
and Contracts Office accepted all of the costs submitted; however, during our testing we
identified a questionable cost.

We found a $2,000 transaction supported by a contract which was not executed. If MTG does
not provide adequate documentation to support this cost, a potential refund of $932.50 may be
due to NEA.

   $80,135.00           Alternative Method of Funding Documentation
     (2,000.00)         Questioned Cost for the contract
   $78,135.00           Allowable Costs

   $80,000.00           Minimum Amount required to meet the match
    (78,135.00)         Allowable Costs
   $ 1,865.00           Amount needed to meet the match

   $    932.50          Potential refund due to NEA

We recommend that MTG submit additional documentation to support the $2,000 transaction
including a copy of the executed contract. Without additional supporting documentation, MTG
may owe a potential refund of $932.50. (See Attachment A)




                                                      5
We recommend that MTG develop written policies and implement procedures to ensure that only
accurate, actual and allowable costs, within the award period, are reported on the final financial
reports. We also recommend that MTG develop written policies and implement procedures to
ensure that adequate documentation is maintained.

Grant No. 11-2800-7024

MTG was awarded a $20,000 grant to support the development and workshop performances of
"Winter's Journey". MTG has not been allowed to draw down any funds on Grant No. 11-2800-
7024 because of the outstanding balance of $6,000 on Grant No. 07-2800-7035.

During our site visit, MTG did not provide any documentation for costs incurred for Grant No.
11-2800-7024 as requested.

Subsequent to the audit, we again requested documentation of costs for Grant No. 11-2800-7024.
On September 12, 2012, MTG provided a spreadsheet with costs totaling $9,923. To support
the incurred costs, we requested a detailed expenditure listing from MTG's financial management
system. On September 28, 2012, MTG submitted another expenditure listing in the amount of
$10,272.74; however, it was not a detailed expenditure listing as requested. We deemed both
expenditure listings inadequate to support any costs incurred.

2 CFR Subpart C, §215.61 (a) (1) states:

       Awards may be terminated in whole or in part only by the Federal awarding agency, if a
       recipient materially fails to comply with the terms and conditions of an award.

We recommend that NEA terminate Grant No. 11-2800-7024 and process an Administrative
Withdrawal with no penalty to MTG.

                              INTERNAL CONTROLS
We identified internal control weaknesses regarding allocation methodology, policies for grant
management, debarment and suspension, and training.

Allocation Methodology

MTG could not provide written procedures for the methodology used to allocate costs to the
NEA awards. According to 2 CFR, Subpart C, §215.21(b) (6), recipients of Federal awards
should have:

       Written procedures for determining the reasonableness, allocability, and allowability of
       costs in accordance with the provisions of the applicable Federal cost principles and the
       terms and conditions of the award.




                                                     6
We recommend that MTG develop written policies and implement procedures to ensure the
methodology for the allocation of costs charged to Federal awards is documented.

Debarment and Suspension

MTG did not have policies and procedures in place to ensure that contractors or recipients were
not debarred or suspended from receiving Federal funds prior to the payment or award of Federal
funds.

NEA General Terms states:

       You must comply with requirements regarding debarment and suspension in Subpart C of 2
       CFR part 180, as adopted by the Arts Endowment in Title 2 CFR, Chapter 32, Part 3254.

2 CFR Part 180, OMB Guidelines to Agencies on Government-wide Debarment and Suspension
(Nonprocurement), Subpart C, §180.300, states, in part:

       You must verify that the person with whom you intend to do business is not excluded or
       disqualified. You do this by:

           (a) Checking the EPLS; or
           (b) Collecting a certification from that person if allowed by the Federal agency responsible for
               the transaction; or
           (c) Adding a clause or condition to the covered transaction with that person.

We recommend MTG develop written policies and implement procedures to ensure that
contractors and recipients are not debarred or suspended from receiving Federal funds prior to
the payment or award of Federal funds.

Section 504 Self-Evaluation

MTG did not have a Section 504 self-evaluation on file. As noted in NEA's General Terms, “A
Section 504 self-evaluation must be on file at your organization.” A Section 504 Self-Evaluation
Workbook, which can be completed online, is available at
www.arts.gov/about/504Workbook.html.

Section 504 of the Rehabilitation Act of 1973, as amended, provides for equal opportunity to
enter facilities and participate in programs and activities. It does not require that every part of
every facility or program be accessible. The important considerations are that individuals with
disabilities have the same opportunities in employment, the same opportunities to enter and
move around in facilities, the same opportunities to communicate and the same opportunities to
participate in programs and activities as non-disabled people. Further, it is important to offer
employment, programs, and services in settings that are integrated rather than to segregate
individuals with disabilities with special programs.




                                                     7
We recommend MTG complete, and update as necessary, a Section 504 self-evaluation to ensure
compliance with the Rehabilitation Act of 1973, as amended. A copy of the self-evaluation
should be submitted to NEA OIG. NEA OIG will provide a copy to NEA’s Office of Civil
Rights/EEO.

Formal Policies and Procedures for the Management of Federal Awards

MTG did not have formal policies and procedures in place for grant management.

Based on the results of our prior evaluation and this audit, we believe that MTG's internal controls
would be strengthened if MTG formalized many of the Federal policies and procedures, and
guidance available on grants and accounting matters. This manual/handbook could contain
publications such as the General Terms and Conditions for Grants, the Financial Management Guide
for State & Local Governments, the OMB Circulars and other publications on Federal requirements.
It could also include procedures for maintaining personnel activity reports and preparation of final
reports including maintaining supporting documentation.

We recommend MTG develop a formal manual/handbook, which contains policies and
procedures relating specifically to management of Federal awards. Those procedures should
ensure that employees, who prepare final financial reports, are familiar with the cost principles of
the relevant OMB Circulars. We also recommend that the staff involved in the management of
Federal awards receive training in OMB Circulars and NEA General Terms and Conditions.

Method of Funding

Based on the deficiencies identified in this report, we believe MTG has materially failed to
comply with the grant terms and conditions and has not demonstrated the ability to adequately
manage Federal awards. Therefore, we recommend that NEA continue to suspend all funding to
MTG.

2 CFR Subpart C, §215.62 states:

       If a recipient materially fails to comply with the terms and conditions of an award, whether
       stated in a Federal statue, regulation, assurance, application, or notice of award, the Federal
       awarding agency may, in addition to imposing any of the special conditions outlined in
       Section___.14. take one or more of the following actions, as appropriate in the
       circumstances.

             (1) Temporarily withhold cash payments pending correction of the deficiency by the
                 recipient or more severe enforcement action by the Federal awarding agency.
             (2) Disallow (that is, deny both use of funds and any applicable matching credit for)
                 all or part of the cost of the activity not in compliance.
             (3) Wholly or partly suspend or terminate the current award.
             (4) Withhold further awards for the project or program.
             (5) Take other remedies that may be legally available.




                                                      8
If, in the future, NEA reinstates MTG’s eligibility to receive funding, we recommend that NEA
consider MTG a "high-risk" grant recipient, in accordance with 45 CFR §1174.12, and
be placed on the Cost Reimbursement method of funding. However, reinstatement should not
occur until MTG has implemented corrective actions to address all of the recommendations of
this report and provide NEA with evidence of improvements in its management of Federal
grants.

Under the Cost Reimbursement method of funding, the grantee will be required to finance its
operations with its own working capital with payments to be paid on a reimbursable basis for
actual cash disbursements supported by adequate documentation. Costs are only reimbursed
when required matching costs have also been incurred. Documentation, generally, will take the
form of an invoice, receipt or contract supported by a copy of a cancelled check/electronic copy
or other document supporting that the transaction was enacted; e.g., bank statement, electronic
reference, etc. Specific documentation requirements will be established by the NEA Grants and
Contracts Office.

                              EXIT CONFERENCE
An preliminary exit conference was held with the MTG's President of the Board/Producing
Director on June 20, 2012. A telephone conference was also held with MTG's President of the
Board/Producing Director and the Chair of the Board on February 13, 2013. MTG's President of
the Board/Producing Director and the Chair of the Board acknowledged and generally agreed
with the findings and recommendations.




                                                9
                             RECOMMENDATIONS
We recommend that MTG:

1. Repay NEA $135,000 for Challenge Grant No. 86-4621-0056, plus any applicable penalties
   and interest.

2. Provide NEA with an approved                            Agreement and evidence of
   payments for at least one year, made in accordance with the agreement.

3. Repay NEA $6,000 for Grant No. 07-2800-7035.

4. Submit additional documentation to support the $2,000 contract transaction including a copy
   of the executed contract for Grant No. 08-2800-7028. Without additional supporting
   documentation MTG may owe a potential refund of $932.50.

5. Develop written policies and implement procedures to ensure that only accurate, actual and
   allowable costs, within the award period, are reported on the final financial reports.

6. Develop written policies and implement procedures to ensure that adequate documentation is
   maintained.

7. Develop written policies and implement procedures to ensure the methodology for the
   allocation of costs charge to Federal awards is documented.

8. Develop written policies and implement procedures to ensure that contractors and recipients
   are not debarred or suspended from receiving Federal assistance prior to the payment or
   award of Federal funds.

9. Complete a Section 504 self-evaluation to ensure compliance with the Rehabilitation Act of
   1973, as amended.

10. Develop a formal manual/handbook, which contains policies and procedures relating
    specifically to managing Federal awards. Those procedures should ensure that employees,
    who prepare final financial reports, are familiar with the cost principles of the relevant OMB
    Circulars.

11. Ensure that staff involved in the management of federal awards receive training in OMB
    Circulars and NEA General Terms and Conditions of the award.




                                                10
We recommend that NEA:

1. Terminate Grant No. 11-2800-7024 and process an Administrative Withdrawal with no
   penalty to MTG.

2. Consider MTG a "high-risk" grant recipient, in accordance with 45 CFR §1174.12, and be
   placed on the Cost Reimbursement method of funding, if, in the future, NEA reinstates
   MTG's eligibility to receive funding. However, reinstatement should not occur until MTG
   has implemented corrective actions to address all of the recommendations of this report and
   provide NEA with evidence of improvements in its management of Federal grants.




                                              11
                                                                                 Attachment A

                        Schedule of Potential Refund Due NEA

$135,000.00       Repayment of Grant No. 86-4621-0056 (Cash Reserve)
   6,000.00       Repayment of Grant Number 07-2800-7035
     932.50       Potential Refund of Grant Number 08-2800-7028
$141,932.50       Total Potential Refund due from MTG


Note: In addition to the potential refund, there may be a de-obligation of $20,000 for Grant
       No. 11-2800-7024.
